      UN Action Urged To Strengthen Afghanistan
         Capacity to Support Future Elections




                             July 6, 2009


SIGAR Audit-09-2 Elections
         SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION

July 6, 2009

The Honorable Karl Eikenberry
U.S. Ambassador to Afghanistan

Ambassador Eikenberry:

In March 2009, we initiated an audit of U.S. and other donor assistance for the preparation and conduct
of presidential and provincial council elections in Afghanistan. In the course of this audit, we identified a
concern that requires immediate attention to build capacity at Afghanistan’s permanent electoral
institution, the Independent Electoral Commission (IEC). The full audit work focuses on the extent to
which assistance is being used effectively to strengthen the capacity of the IEC and to sustain this
capacity for future elections. We are preparing a draft of the full audit report which we anticipate
issuing at the end of August 2009.

This letter report focuses on an issue that warrants immediate attention regarding the use of U.S. and
international funds to support the upcoming democratic elections in Afghanistan. Specifically, we noted
that a key advisor position in the United Nations Development Program’s Enhancing Legal and Electoral
Capacity for Tomorrow (UNDP/ELECT) project—which is critical to facilitating the institutionalization of
the IEC to carry out its mandate and to establish sustainable capacity—remains unfilled as of July 2009.
We recommend that the U.S. Ambassador to Afghanistan present our findings to the Special
Representative of the United Nations Secretary-General for Afghanistan and the Chief Electoral Advisor,
UNDP/ELECT. Our observations in this letter are based on the review of documents from and interviews
with representatives from the United Nations and the UNDP/ELECT project, the IEC and United States
and other donor nations, including U.S. Agency for International Development officials and their
implementing partners and other involved organizations, from March through July 2009 in Kabul,
Afghanistan and Washington, D.C.



BACKGROUND

International aid, of which the United States is a major contributor, is necessary to strengthen Afghan
institutions, build upon democratic progress made, and conduct legitimate elections. The extent to
which this assistance is used effectively is critical to sustain long-term results and lessen future
dependence on international support. Support for Afghan’s elections is managed through a “basket


SIGAR Audit-09-2 Elections                                                                           Page 1
fund” mechanism whereby the donors contribute funds to the UNDP/ELECT project. The Afghan
electoral body, IEC, is responsible for overseeing and managing all aspects of the election process. For
many IEC staff, this is the first substantive experience conducting an election. While a key component of
UNDP/ELECT is to support IEC capacity building, UNDP/ELECT’s primary focus is to support IEC’s
immediate operational needs to conduct the August 2009 elections.



URGENT NEED TO HIRE CAPACITY DEVELOPMENT ADVISOR WITH MANAGERIAL ELECTION EXPERIENCE

The lack of international and Afghan attention to sustainable capacity building following the last
electoral cycle in 2005 contributed, we believe, to the difficulties faced in 2009 elections. UNDP/ELECT
planned to hire a Capacity Development Advisor to focus on long-term electoral institution building,
earmarking approximately $600,000 for this position. 1 However, as of July 6, 2009, this position
remained unfilled. In our view, this position is critical to facilitating the institutionalization of the IEC to
carry out its mandate and to establish sustainable capacity. The Advisor is responsible for various facets
of capacity development “to ensure that capacity building and transfer of skills occur between technical
experts/advisors and the IEC staff” and more significantly, to “develop a long term capacity building
strategy in conjunction with the IEC”, according to the position description.

Filling this position is urgently needed to successfully assess and respond to capacity development
issues, monitor progress, identify skill gaps, and report on achievements, lessons learned, and
requirements for future international support. Executive authority and prior experience in election
management are not currently prerequisites for the position but such experience would (1) more
effectively support the IEC to fulfill its mandate and (2) facilitate a dialogue between the IEC, Ministry of
Finance, and Civil Service Commission to develop and establish a budget capable of supporting all IEC
functions for future elections.

Many of the donors we interviewed expressed similar concern that this position remains vacant less
than 60 days before the election and emphasized the need for a dedicated focus on the sustainability of
the IEC as an institution for this electoral cycle and beyond. For the donor community, leveraging the
substantial investment in this election cycle is imperative to reduce future dependence by the IEC on
international support.



RECOMMENDATION

We recommend the U.S. Ambassador to Afghanistan present our findings to the Special Representative
of the United Nations Secretary-General for Afghanistan and Head of the United Nations Assistance
Mission in Afghanistan; and to the Chief Electoral Advisor, UNDP/ELECT and urge them to take
immediate action to fill the position and to select an individual with election managerial experience.

1
 The amount earmarked for this position has been identified in the UNDP/ELECT Indicative Budget 2009 and by the
Chief Electoral Advisor UNDP/ELECT.

SIGAR Audit-09-2 Elections                                                                               Page 2
If you have any questions about this report, please contact me at (703) 602-3812 or
john.brummet@sigar.mil.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General for Afghanistan Reconstruction




SIGAR Audit-09-2 Elections                                                            Page 3
_________________________________________________________________________________
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction is to enhance oversight of programs for the
                              reconstruction of Afghanistan by conducting independent and
                              objective audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction strategy
                                      and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR         To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies           SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                  reports, testimonies, and correspondence on its Web site.


To Report Fraud, Waste, and       To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan              allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs           reprisal contact SIGAR’s hotline:

                                      •   Web: www.sigar.mil/fraud
                                      •   Email: hotline@sigar.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan 318-237-2575
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-604-0983



Public Affairs                    Public Affairs Officer
                                     • Phone: 703-602-8742
                                     • Email: PublicAffairs@sigar.mil
                                     • Mail: SIGAR Public Affairs
                                         400 Army Navy Drive
                                         Arlington, VA 22202
